Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of High-Dollar Payments for Maryland Medicare Part B Claims Processed by TrailBlazer Health Enterprises for the Period January 1, 2003 Through December 31, 2005
August 20, 2008 | Audit A-03-07-00017
Executive Summary
TrailBlazer Health Enterprises (TrailBlazer) overpaid providers $145,000 for 15 of the 49 high-dollar payments ($10,000 or more) we reviewed in detail for calendar years 2003-05. Thirty-four payments were appropriate. A copy of the final report was provided to the Medicare contractor for final resolution of the two outstanding overpayments totaling $18,000 (report number A-03-08-00025).
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS